INVESTIGATIVE
REPORT

National Oceanic
and Atmospheric
Administration
Review of Improper Expenditure
for GOES-R Ground Segment
Team Activity

FOR PUBLIC RELEASE
REPORT NUMBER 14-0475
SEPTEMBER 22, 2014


U.S. Department of Commerce
Office of Inspector General
Office of Investigations
  U.S. DEPARTMENT OF COMMERCE                                                                                 OFFICE OF INSPECTOR GENERAL



Contents
Chapter 1: Introduction .................................................................................................... 1
   I.        Executive Summary ..............................................................................................................................2
   II. Scope and Methodology ......................................................................................................................4
   III. Organization of the Report ................................................................................................................4
Chapter 2: Background ..................................................................................................... 5
   I.        Overview of the NOAA GOES-R Program ...................................................................................5
   II. Allegations to be Resolved .................................................................................................................5
   III. Legal and Regulatory Overview.........................................................................................................6
Chapter 3: Analysis ............................................................................................................ 8
   I.        Facts .........................................................................................................................................................8
        A. Planning of GOES-R Ground Segment Team Activity .............................................................8
        B.        Time and Attendance Guidance Prior to Team Activity ........................................................8
        C.        Initial Time and Attendance Entries for the Team Activity ...................................................9
        D.        Disclosure to OIG of Insufficient Time and Attendance Adjustments ............................ 10
             1.      Adjustments Made by Federal Government Employees .................................................. 11
             2.      Adjustments Made by Noblis Employees ............................................................................ 13
             3.      Adjustments Made by Columbus Technologies and Services, Inc., Employees .......... 14
             4.      Adjustments Made by ECG, Inc., Employees ...................................................................... 15
             5.      Adjustments Made by Booz Allen Hamilton Employee.................................................... 15
             6.      Adjustments Made by The Aerospace Corporation Employees .................................... 16
        E.        Total Amount Incorrectly Billed to the Government .......................................................... 17
        F.        Steps Taken by GOES-R Management Following OIG Review .......................................... 18
   II. Analysis................................................................................................................................................. 19
Chapter 4: Conclusion and Recommendations ............................................................ 21
   I.        Conclusion........................................................................................................................................... 21
   II. Recommendations ............................................................................................................................. 21




                                                                                                                                                      REPORT #14-0475
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL



Chapter 1: Introduction
On July 2, 2013, the Office of Inspector General (OIG) received an anonymous whistleblower
complaint alleging that National Oceanic and Atmospheric Administration (NOAA)
management for the Geostationary Orbiting Environmental Satellite-R Series (GOES-R)
program invited and encouraged more than 100 GOES-R government and contract employees
to miss a half-day of work on May 23, 2013, to attend a matinee showing of the latest Star Trek
movie. The complaint asserted that the event created the appearance of disregard for tax
dollars and questioned whether the employees’ time and attendance entries for the event were
accurate and whether such an event could be a contributing factor in GOES-R schedule delays.

On July 29, 2013, the OIG initiated investigation 13-0948-I to examine the allegations raised in
the complaint. The results of the investigation revealed that 21 government and contract
employees participated in a team lunch at a local restaurant, followed by a 2:00 p.m. showing of
“Star Trek Into Darkness,” which had a run time of 132 minutes. The event, described as a
team-building activity for the GOES-R Ground Segment staff, was organized by a GOES-R
Ground Segment supervisor (a NOAA employee, hereinafter Supervisor1) as a way for his
team to build unity. 1 The OIG determined that GOES-R Ground Segment management
provided no guidance to staff regarding proper time and attendance entries for the activity in
the days leading up to outing, and Supervisor 1 stated to the OIG that he assumed each person
would use leave/personal time or make up work hours for the time spent participating in the
team activity. The OIG also determined that 13 movie attendees—six government and seven
contract employees—had failed to charge their attendance at the movie as non-work hours.
The timecards for those 13 employees were later amended or annotated, after the OIG
initiated investigation 13-0948-I, to reflect the use of annual leave/personal time or a reference
to offsetting hours worked to cover participation in the team event. The OIG concluded
investigation 13-0948-I on March 17, 2014, with a determination that, absent these adjustments,
the government paid $3,487.31 in taxpayer-funded wages for employees to attend the theater
showing of “Star Trek Into Darkness.”

Four days later, on March 21, 2014, a senior representative from Noblis, Inc., (Noblis), a
contractor providing program, project management, and engineering support for the GOES-R
program, submitted a letter to the OIG disclosing the results of its internal review into the
GOES-R team-building exercise. 2 Noblis reported that:



1 Masculine pronouns are used for all individuals in this report to further mask the identity of witnesses and GOES-R staff
members interviewed as part of this investigation.
2 See Letter from Noblis, Inc., to the OIG (received by the OIG on March 24, 2014) (on file with OIG) [hereinafter Noblis

Letter]. Noblis indicated that it made this disclosure pursuant to the Federal Acquisition Regulation, 48 C.F.R. § 52.203-13,
which requires contractors to “timely disclose, in writing, to the agency Office of the Inspector General (OIG), with a copy to
the Contracting Officer, whenever, in connection with the award, performance, or closeout of this contract or any subcontract
thereunder, the Contractor has credible evidence that a principal, employee, agent, or subcontractor of the Contractor has
committed: (A) A violation of Federal criminal law involving fraud, conflict of interest, bribery, or gratuity violations found in
Title 18 of the United States Code; or (B) A violation of the civil False Claims Act (31 U.S.C. 3729-3733).”




REPORT #14-0475                                                                                                                  1
     U.S. DEPARTMENT OF COMMERCE                                 OFFICE OF INSPECTOR GENERAL


              . . . five of its employees participated to varying degrees in [the] team
              building exercise sponsored by NOAA-NASA staff on the GOES-R Support
              effort involving lunch and a movie. Four of the five Noblis employees
              initially charged all or part of their time spent attending the team building
              exercise direct to the GOES-R Support effort. However, in September
              2013, these employees subsequently transferred two (2) hours of their
              time charged that day to the GOES-R Support effort to a Noblis overhead
              charge code and Noblis then credited the GOES-R Support effort. . . . 3

The Noblis Letter also stated that “some of its employees may have spent more than two (2)
hours at the team building exercise,” making the initial credit of two hours per employee
insufficient. 4 Noblis estimated that “four (4) hours is a better approximation of the time
required to attend a lunch and a movie.” 5

This estimate by Noblis called into question the sufficiency of the adjustments made by
participants in the team activity during the course of OIG investigation 13-0948-I. In response
to this information, the OIG initiated this investigation, 14-0475-P, to determine the sufficiency
of time and attendance adjustments made by all participants in the GOES-R team activity, the
accuracy of statements made to the OIG during investigation 13-0948-I, and the degree to
which management addressed timekeeping for similar activities since May 2013.

As addressed in this report, investigation 14-0475-P revealed that four participants in the team
event improperly billed their participation to the government and did not make up for the time
spent at the event by working additional hours on May 23, 2013, or on other days during the
same pay period. During the course of this investigation, the OIG considered labor rates for
the employees and calculated $1,460.12 in taxpayer-funded wages initially charged to the
government for those four employees to attend the team event—this amount was subsequently
refunded to the government by the respective contract companies. All other participants in the
team event correctly accounted for their time on May 23, 2013, or worked additional hours
during the same pay period to make up for the time spent at the event.

I.       Executive Summary

The OIG’s review established that Supervisor 1 organized a team-building event – namely,
having lunch at a restaurant and watching the new Star Trek movie – which was designed to
boost morale, bolster team unity, and re-motivate the staff toward the GOES-R mission. The
evidence further established that twenty-one GOES-R Ground Segment staff members—six
federal government employees and fifteen contract employees—participated in the event to
varying degrees. The OIG concluded that four of the participants, all of whom were contract
employees, incorrectly billed their participation and did not make up for the hours by working
additional hours on the day of the event or on other days during the same pay period. These
four employees billed a total of 12 hours to the GOES-R program, resulting in a total of

3 Id. at 2.
4 Id. at 5.
5 Id. at 6.




2                                                                                      REPORT #14-0475
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


$1,460.12 improperly charged to the government. We did not, however, find sufficient
evidence to conclude that these four contract employees knew their initial charges were false
or improper at the time they entered their timekeeping. Although we found that four contract
employees incorrectly billed their hours for the event, we determined that 17 of the employees
who participated in the event properly accounted for the event or made up the time by
working extra hours during the same pay period.

Although Supervisor 1’s intent in organizing the event appears to have been an effort to boost
low morale, the OIG found that the execution of the event resulted in several problems. The
OIG concluded that, unlike training events, which are designed to develop professional skills
and therefore may be counted as work-hours, watching a Star Trek movie offered no
professional development opportunities. Therefore, even if such an event resulted in greater
unity or cohesion, the hours spent at the event should not have been billed to the government.

We note that the companies responsible for the four employees—Noblis, Booz Allen
Hamilton, and The Aerospace Corporation (Aerospace)—subsequently “credited back” the
amounts improperly billed to the government and, therefore, there is no longer a loss to the
government. However, we note that these credits were made only after the OIG initiated its
first investigation (13-0948-I), and we found no evidence that GOES-R management or the
contract companies would have recognized the improper billing absent the OIG's review.

We further found that the billing problems resulted from Supervisor 1’s failure to provide clear
guidance to the staff about appropriate timekeeping for the event. While we acknowledge that
he organized the event to enhance unity and build morale within the Ground Segment staff and
credit his statement that he believed the staff understood the relevant timekeeping rules, we
must recognize that this failure to communicate those rules laid the foundation for the
improper billing to the government.

The testimony of the participants and a review of their respective timesheets revealed that
most of the employees who participated in the event made up the time by working extra hours
on that day or other days during the relevant pay period. We also found that a significant
number of employees who initially billed their time appropriately or otherwise made up their
time during the same pay period were later asked by GOES-R management and/or contract
management to adjust their entries to reflect leave or vacation for the event. 6 Witnesses told
the OIG that these changes were apparently designed to remove doubt and avoid any
appearance of impropriety. Asking employees to use leave or vacation time when they in fact

6
  The Office of Personnel Management (OPM) explains that federal government employee may use annual leave for “vacations,
rest and relaxation, and personal business or emergencies.” Employees and supervisors are “mutually responsible for planning
and scheduling the use of employees' annual leave throughout the leave year.” The accrual of annual leave for full-time Federal
employees is based upon the total number of years of service and accumulates over the course of 26 pay periods during a
calendar year. An employee with less than 3 years of service earns 4 hours of leave per pay period (total of 104 hours per
year); an employee with at least 3 years of service, but less than 15 years of service, earns 6 hours of leave per pay period and
10 hours in the last pay period of the year (total of 160 hours per year); and an employee with more than 15 years of service
earns 8 hours of leave per pay period (total of 208 hours per year). See OPM, Pay & Leave, http://www.opm.gov/policy-data-
oversight/pay-leave/leave-administration/fact-sheets/annual-leave/ (last visited September 2, 2014). The OIG notes that the
accrual and use of leave (or personal time) by contract employees is established by the policy of each contract company and
may not be consistent with the OPM policy for federal government employees.




REPORT #14-0475                                                                                                                     3
       U.S. DEPARTMENT OF COMMERCE                             OFFICE OF INSPECTOR GENERAL


 properly accounted for the amount of time worked toward the GOES-R program, however,
 resulted in inaccurate billing for work performed, to the benefit of the federal government.

 In light of the confusion among GOES-R Ground Segment staff regarding timekeeping for the
 May 23, 2013, team activity, we suggest to GOES-R management that it provide training to the
 Ground Segment staff to ensure similar issues do not recur. We recognize that the
 contractors have addressed proper timekeeping with the individual participants in the team
 activity, but we concluded that GOES-R management should provide training regarding proper
 timekeeping for government-sanctioned team activities to the entire GOES-R staff to avoid
 recurrence.

 II.     Scope and Methodology

 The OIG conducted this investigation by interviewing relevant witnesses and reviewing various
 records and documents. The OIG interviewed government employees from NOAA and the
 National Aeronautics and Space Administration (NASA), along with contract employees who
 participated in the team event. All interviews of participants in the team activity were sworn
 and recorded, and affidavits were obtained following the interviews. The OIG obtained time
 and attendance records and email correspondence from NOAA, NASA, and each of the
 contract companies for the participants in the team activity.

III.     Organization of the Report

 This report will begin with an overview of the GOES-R program, the allegations to be resolved,
 and a listing of the relevant regulations and policies at issue in this investigation. This report
 will then discuss the facts established during this investigation and the OIG’s analysis of those
 facts. The report will close with the OIG’s conclusions and recommendations for NOAA.




 4                                                                                    REPORT #14-0475
U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL



Chapter 2: Background
This chapter will provide an overview of the NOAA GOES-R program, a summary of the
allegations resolved in this investigation, and an overview of applicable legal and regulatory
provisions.

 I.    Overview of the NOAA GOES-R Program

One of the primary functions of the NOAA National Environmental Satellite, Data, and
Information Service (NESDIS) is to acquire and manage the nation’s operational environmental
satellites. 7 There are two types of satellite systems operated by NESDIS: geostationary
operational environmental satellites (GOES) and polar-orbiting operational environmental
satellites (POES). 8 GOES satellites operate approximately 22,300 miles above earth, in
geosynchronous orbit, and provide land, ocean, and cloud temperatures; monitor activities of
the sun; and also assist with search and rescue activities by relaying emergency locator beacon
signals. 9

In conjunction with NASA, NOAA is developing the next generation of four GOES satellites. 10
The first satellite in the series—GOES-R—is now scheduled for launch in the second quarter of
fiscal year 2016. 11

The GOES-R program is managed by NOAA with two integrated NOAA/NASA project offices,
the Ground Segment Project (hereinafter Ground Segment) and the Flight Project. 12 NOAA’s
responsibilities include overall management of the acquisition and development efforts for the
entire Ground Segment, such as the facilities and antenna sites, as well as the software and
hardware for satellite command and control. 13 At the time of the team-building event in May
2013, the GOES-R Ground Segment staff totaled 106 members, consisting of 13 NOAA
employees, 18 NASA employees, and 75 contract employees. 14

II.    Allegations to be Resolved

The statement in the Noblis Letter that four hours is a better approximation of the time
required to attend a lunch and a movie calls into question the sufficiency of the adjustments
made by participants in the team activity during the course of OIG investigation 13-0948-I. As

7 See OIG, Audit of Geostationary Operational Environmental Satellite – R Series: Comprehensive Mitigation Approaches, Strong Systems

Engineering, and Cost Controls Are Needed to Reduce Risks of Coverage Gaps, Report No. OIG-13-024-A. (April 25, 2013)
[hereinafter Audit of GOES-R Series].
8 Id.
9 Id.
10 Id.
11 See GOES Status, GOES-R, http://www.goes-r.gov/mission/history.html (last visited August 22, 2014) [hereinafter GOES-R

Mission History].
12 See Audit of GOES-R Series, supra (NASA manages the development and acquisition of the Flight Project, consisting of the

spacecraft, instruments, launch vehicle, and auxiliary communication payloads); GOES-R Mission History, supra.
13 See Audit of GOES-R Series, supra.
14 See OIG Investigative Record Form (IRF): Interview of GOES-R Supervisor 1 on September 18, 2013 (on file with OIG

Investigation 13-0948-I).




REPORT #14-0475                                                                                                                         5
       U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL


 discussed in this report, 13 GOES-R Ground Segment staff members attended both the lunch
 and movie portions of the team activity on May 23, 2013. 15 The lunch portion was scheduled
 to begin at noon, followed by a matinee showing of “Star Trek Into Darkness” beginning at 2:00
 p.m. 16 Because the movie has a run time of 2 hours and 12 minutes, it appears reasonable to
 conclude that those employees who participated in both portions of the event spent, at a
 minimum, four hours away from the GOES-R mission. 17 Yet, when those employees initially
 adjusted their time and attendance records to account for their participation, none made an
 adjustment of four hours. 18 As a result, this investigation examined the sufficiency of the time
 and attendance adjustments made by all participants in the team activity.

 Additionally, given the apparent inconsistency between the event duration and subsequent
 adjustments by participants, this investigation reviewed the accuracy of information provided to
 the OIG during investigation 13-0948-I. Specifically, this investigation examined the number of
 participants, amount of participation, initial time and attendance entries, and subsequent
 adjustments, as originally reported to the OIG during investigation 13-0948-I.

 Finally, this investigation reviewed the degree to which management addressed timekeeping for
 similar team activities since May 2013, as recommended to NOAA following OIG Investigation
 13-0948-I. 19

III.     Legal and Regulatory Overview

 Pursuant to 31 U.S.C. § 3729, “any person who knowingly presents, or causes to be presented,
 a false or fraudulent claim for payment or approval. . .is liable to the United States Government
 for a civil penalty. . . .” 20

 Federal government employees are required to “disclose waste, fraud, abuse, and corruption to
 [the] appropriate authorities,” 21 and U.S. Department of Commerce policies require that all
 U.S. Department of Commerce employees, including NOAA personnel, report to the OIG
 “information indicating the possible existence” of activities that “may constitute
 mismanagement, waste of funds, abuse of authority, or a violation of [a] law or regulation.” 22




 15 See Noblis Letter, supra; OIG IRF: Review of Documents from Booz Allen Hamilton (on file with OIG)[hereinafter Documents

 from Booz Allen Hamilton]; OIG IRF: Review of Documents from ECG, Inc. (on file with OIG)[hereinafter Documents from ECG];
 OIG IRF: Review of Documents from Columbus Technologies and Services, Inc. (on file with OIG)[hereinafter Documents from
 Columbus]; OIG IRF: Review of Documents from The Aerospace Corporation (on file with OIG)[hereinafter Documents from
 Aerospace]; OIG IRF: Receipt of Documents from Supervisor 1 (February 12, 2014) (on file with OIG Investigation 13-0948-I)
 [hereinafter Documents from Supervisor 1, February 12, 2014].
 16 OIG IRF: Receipt of E-mail from GOES-R Supervisor 1 (September 20, 2013) (on file with OIG Investigation 13-0948-I)

 [hereinafter E-mail from Supervisor 1].
 17 See Star Trek Into Darkness (2013), 132 minutes, IMDb, http://www.imdb.com/title/tt1408101/ (last visited August 19, 2014).
 18 See Documents from Supervisor 1, February 12, 2014, supra.
 19 See Assistant Inspector General for Investigations Memorandum to NOAA NESDIS (March 18, 2014) reporting the results of

 OIG Investigation 13-0948-I (on file with OIG) [hereinafter Memorandum to NOAA].
 20 The False Claims Act, 31 U.S.C. § 3729(a)(1) (2006).
 21 5 C.F.R. § 2635.101(b)(11) (2014); Exec. Order No. 12674 § 101(k).
 22 DOC Department Administrative Order 207-10 (3.01), (3.04).




 6                                                                                                            REPORT #14-0475
U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL


The “[k]nowing failure of a [U.S. Department of Commerce] officer or employee to comply
with the reporting requirements . . . may result in disciplinary action . . . .” 23

The Federal Acquisition Regulation, which is applicable to federal contractors, requires a
contractor to “timely disclose, in writing, to the agency Office of the Inspector General (OIG),
with a copy to the Contracting Officer, whenever, in connection with the award, performance,
or closeout of this contract or any subcontract thereunder, the Contractor has credible
evidence that a principal, employee, agent, or subcontractor of the Contractor has
committed—

            (A) A violation of Federal criminal law involving fraud, conflict of interest, bribery, or
                gratuity violations found in Title 18 of the United States Code; or

            (B) A violation of the civil False Claims Act (31 U.S.C. 3729-3733).” 24




23   DOC Department Administrative Order 207-10 (3.04).
24   Contractor Code of Business Ethics and Conduct, 48 C.F.R. § 52.203-13 (2010)




REPORT #14-0475                                                                                            7
     U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL



Chapter 3: Analysis
This chapter will review the number of hours spent at the team event by each participant, the
accuracy of initial time and attendance entries for each participant, the sufficiency of
adjustments made to time and attendance records, and the degree to which management
addressed timekeeping for similar activities since May 2013.

I.     Facts

      A. Planning of GOES-R Ground Segment Team Activity

In April 2013, Supervisor 1 proposed to the GOES-R Ground Segment staff a team activity that
would allow staff members to attend a showing of “Star Trek Into Darkness” during normal
working hours. 25 Supervisor 1 believed this activity would be popular with the staff members
given the GOES-R program mission, and he chose to organize the activity as a way for the
GOES-R Ground Segment team—both federal government and contract employees—to “come
together in a non-work, social setting to help build some unity.” 26

Numerous witnesses told the OIG that GOES-R Ground Segment staff often worked more
than 40 hours weekly without earning overtime pay or compensatory time, and Supervisor 1
was aware of “a morale issue” that he hoped to address with an activity that would “bond” the
team. 27

Supervisor 1 began promoting the team activity in April 2013 at a GOES-R Ground Segment all-
hands meeting, and the staff was periodically reminded of the planned team activity through a
series of e-mails leading up to May 23, 2013. 28 The final details regarding the outing, as
presented to the staff by e-mail on May 22nd and during an all-hands meeting on May 23rd,
included lunch at 12:00 p.m. at a local restaurant followed by 2:00 p.m. showing of “Star Trek
Into Darkness.” 29 In total, 21 GOES-R Ground Segment staff members—two NOAA
employees, three NASA employees, one Department of Commerce employee, and 15 contract
employees—participated in various portions of the team activity on May 23, 2013. 30

      B. Time and Attendance Guidance Prior to Team Activity

The e-mails sent to the GOES-R Ground Segment staff and the presentations made at the all-
hands meetings leading up to the team activity provided no guidance regarding proper time and

25 See E-mail from Supervisor 1, supra.
26 See OIG IRF: Receipt of Information from GOES-R Senior Supervisor (September 4, 2013) (on file with OIG Investigation
13-0948-I); OIG IRF: Interview of GOES-R Supervisor 1 and Review of Affidavit [hereinafter Supervisor 1 Interview].
27 See Supervisor 1 Interview, supra; OIG IRF: Interview of Supervisor 2 and Review of Affidavit [hereinafter Supervisor 2

Interview]; OIG IRF: Interview of Employee 2 and Review of Affidavit [hereinafter Employee 2 Interview]; OIG IRF: Interview of
Employee 3 and Review of Affidavit [hereinafter Employee 3 Interview].
28 See, e.g., Documents from Aerospace, supra; Supervisor 1 Interview, supra; E-mail from Supervisor 1, supra. See Appendix A of this

report for presentation slides used at GOES-R Ground Segment all-hands meetings.
29 See Documents from Aerospace, supra; E-mail from Supervisor 1, supra.
30 See OIG IRF: Receipt of E-mail from GOES-R Supervisor 1 (September 19, 2013) (on file with OIG Investigation 13-0948-I).




8                                                                                                                   REPORT #14-0475
U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL


attendance entries to cover participation in the event. 31 Further, Supervisor 1 acknowledged in
his OIG interview that he was not clear to GOES-R Ground Segment staff members regarding
how they should account for their time during the team activity—he explained to the OIG that
he assumed staff members would either make up the hours by working earlier or later, or use
personal leave or compensatory time to cover time spent at the team activity. 32 According to
Supervisor 1, he believed the fact that the team-building event could not be charged to the
government was “pretty basic stuff” and that he therefore did not believe he needed to tell
employees the event was not chargeable to the government. 33

Supervisor 1 told the OIG that he did not “encourage” employees to attend, but acknowledged
that he did present the event at two staff-wide meetings and “promoted” the event. 34 Several
GOES-R Ground Segment staff members told the OIG they believed the event was sanctioned
by GOES-R management and that participation was billable as regular work hours. 35 Other
employees, however, recognized the team activity on May 23, 2013, was not work-related and
distinguished the event from the training activities and professional development events that
were offered to the GOES-R Ground Segment staff prior to May 2013. 36

    C. Initial Time and Attendance Entries for the Team Activity

The OIG opened investigation 13-0948-I in response to an anonymous whistleblower complaint
alleging that the GOES-R Ground Segment staff was encouraged to participate in the team
activity on May 23, 2013, creating an appearance of disregard for tax dollars. 37 During the
course of investigating the anonymous complaint, the OIG discovered that certain movie
attendees “had not charged the movie time as non-work hours.” 38 According to GOES-R
Ground Segment Supervisor 1, the OIG’s inquiries into timekeeping under 13-0948-I prompted
him to discuss time and attendance entries with each participant in the team activity individually,
informing them that events like the Star Trek movie “are not chargeable.” 39 The timesheets for
the GOES-R staff who initially charged their participation as work hours were then amended to
reflect varying amounts of annual leave/personal time or a reference to offsetting hours worked
for the May 23rd event. 40 For example, Supervisor 1 amended his timesheet by charging two



31 See Supervisor1 Interview, supra; OIG IRF: Receipt of Information from GOES-R Senior Supervisor (September 4, 2013) (on

file with OIG Investigation 13-0948-I).
32 See Supervisor 1 Interview, supra.
33 Id.
34 Id.
35 See, e.g., OIG IRF: Interview of Employee 8 [hereinafter Employee 8 Interview]; OIG IRF: Interview of Employee 9 [hereinafter

Employee 9 Interview]; see also OIG IRF: Interview of Employee 19 [hereinafter Employee 19 Interview] (Employee 19 indicated
that, because the event was a “morale event” offered by the government, he believed attendance could be billed to the
contract).
36 See, e.g., OIG IRF: Interview of Employee 4 [hereinafter Employee 4 Interview]; OIG IRF: Interview of Employee 6 [hereinafter

Employee 6 Interview].
37 See Hotline Complaint, Case No. 13-0948-I (July 2, 2013).
38 See Memorandum to NOAA, supra.
39 See Supervisor 1 Interview, supra.
40 See Noblis Letter, supra; Documents from Booz Allen Hamilton, supra; Documents from ECG, supra; Documents from Columbus,

supra; Documents from Aerospace, supra; OIG IRF: Review of DOC Web Time and Attendance Records (on file with OIG); OIG
IRF: Review of NASA Time and Attendance Records (on file with OIG).




REPORT #14-0475                                                                                                               9
     U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL


hours of annual leave for May 23rd, while a contract employee amended his timesheet by
charging three hours of personal time. 41

The OIG’s Report of Investigation for investigation 13-0948-I, which was submitted to NOAA
on March 18, 2014, found that, absent the subsequent corrections, there was improper
expenditure of taxpayer-funded wages for 13 employees to participate in the team activity. The
OIG recommended that “clear guidance on proper timekeeping be communicated in writing to
agency and contractor staff in advance of any similar workgroup outings in the future.” 42

      D. Disclosure to OIG of Insufficient Time and Attendance Adjustments

On March 21, 2014, a senior manager for Noblis submitted a letter to the Inspectors General
for the U.S. Department of Commerce and U.S. General Services Administration concerning
the inappropriate billing by Noblis employees for their participation in the GOES-R team
event. 43

According to the senior manager, Noblis reviewed and investigated the GOES-R Ground
Segment team event and the charges submitted by its employees for their participation in the
event. 44 Noblis explained that five of its employees participated in the event—one employee
attended the lunch portion of the event only and the other four Noblis employees participated
in both the lunch and movie portions of the event. 45 Those four employees each billed eight
hours to the GOES-R program for May 23, 2013. 46

Based on its internal review and investigation, Noblis discovered that “some of the employees
may have spent more than two (2) hours at the team building exercise while others could not
recall with specificity the amount of time spent at the team building exercise.” 47

The senior manager for Noblis explained that, “[I]n September 2013, these employees
subsequently transferred two (2) hours of their time charged that day to the GOES-R Support
effort to a Noblis overhead charge code[.]” 48 When reviewing the decision to remove only
two hours from the billed hours on May 23, 2013, a contract manager for Noblis “did not recall




41 See Supervisor 1 Interview, supra; OIG IRF: Interview of Employee 17 [hereinafter Employee 17 Interview].
42 See Memorandum to NOAA, supra.
43 See Noblis Letter, supra. The senior manager explained that Noblis’ letter was being submitted to the OIG in response to an

e-mail request from a NOAA Contracting Officer in which the Contracting Officer asked for copies of timesheets and hourly
rates for all Noblis employees who participated in the GOES-R program team building event on May 23, 2013. The senior
manager for Noblis explained that, when Noblis received the e-mail from the NOAA Contracting Officer, the request was
provided to the Noblis legal department “who subsequently reviewed the time sheets in question and interviewed the
employees who participated in the team building exercise. . . .”
44 Id.
45 Id.
46 Id.
47 Id.
48 Id. After the Noblis employees adjusted their the time and attendance records by transferring two hours each to a Noblis

overhead charge code, Noblis “credited the GOES-R Support effort an aggregate amount. . . .for eight (8) hours of time (i.e., 2
hours each, for four affected employees).”




10                                                                                                             REPORT #14-0475
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


the exact reason and guessed that it was because most movies are approximately two hours
long.” 49

Noblis made the following conclusions regarding the adjustments made to time and attendance
records following the GOES-R program team building event: “[T]here is insufficient evidence
to support the assumption that two (2) hours of time per employee was the correct amount of
time to credit the GOES-R Support effort for time spent by the four Noblis employees at the
team building exercise, and, consequently, the previous credit may not have adequately
accounted for the entire amount of hours direct-charged to NOAA for the team building
exercise. . .” 50

Noblis therefore estimated that four hours was a better approximation of the amount of time
required to participate in the lunch and movie portions of the team building events. 51 The
Noblis Letter concluded: “As a result, for the four employees who charged their time to the
GOES-R Support effort, a total of sixteen (16) hours has been assumed to have been
incorrectly charged to the GOES-R Support effort.” 52

The OIG initiated this investigation, 14-0475-P, in response to the information provided by
Noblis. The following sections detail the initial time and attendance entries and subsequent
adjustments made by federal and contract employees to address participation in the GOES-R
team event.

              1. Adjustments Made by Federal Government Employees

The OIG reviewed the time and attendance entries made by six federal government employees
assigned to the GOES-R Ground Segment staff. The federal government employees, consisting
of three NASA employees, two NOAA employees, and one Department of Commerce Office
of General Counsel (OGC) employee, participated in the team activity on May 23, 2013, to
varying degrees. 53

According to Supervisor 2, a NASA employee, the GOES-R Ground Segment staff “easily put[s]
in 60 hours a week and charge[s] 40.” 54 Supervisor 2 explained that he does not earn overtime
or compensatory time for hours worked over 40 hours per week. 55 Another NASA employee
indicated that he works, on average, at least 50 hours per week. 56 The evidence established
that all federal government employees who participated in the team event on May 23rd worked


49 Id.
50 Id. Noblis indicated it would issue a repayment to NOAA in any form acceptable to the Contracting Officer for the
“additional eight (8) hours Noblis has determined may have been inappropriately charged” as well as “remove the eight (8)
hours that were previously transferred to the overhead charge code and reclassify them an unbillable account so as to not
charge the Government in any form, directly or indirectly.”
51 Id.
52 Id.
53 See generally Supervisor 1 Interview, supra; Supervisor 2 Interview, supra; OIG IRF: Interview of Employee 1 [hereinafter

Employee 1 Interview]; Employee 2 Interview, supra; Employee 3 Interview, supra; Employee 4 Interview, supra.
54 See Supervisor 2 Interview, supra.
55 Id.
56 See Employee 2 Interview, supra.




REPORT #14-0475                                                                                                                11
     U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL


additional hours following the movie or worked additional hours on other days during the bi-
weekly pay period to make up for the time spent at the event.

Specifically, three employees (i.e., Supervisor 1, Employee 1, and Employee 2) made up the time
spent at the team event by working additional hours on other days during the same bi-weekly
period. 57 The remaining federal government employees (i.e., Supervisor 2, Employee 3, and
Employee 4) worked additional hours on May 23, 2013, following the movie, to make up for the
time spent at the team event. 58

Notably, during the course of OIG investigation 13-0948-I, Supervisors 1 and 2 and Employees
1 through 3 adjusted their initial time and attendance entries to reflect varying amounts of
annual leave on May 23, 2013. 59 When asked by the OIG why they agreed to use their personal
leave, even though they had worked additional hours that would have covered the hours spent
at the event, several employees stated that they agreed to use leave to remove any questions
regarding the hours worked or because they did not want to argue about the amount of actual
time worked that pay period. 60 Supervisor 1 explained to the OIG that he initially entered
eight hours of work on May 23, 2013, because he knew that he had worked longer hours on
other days to cover the time spent at the event. 61 He later decided to correct his time and
attendance record, despite having made up the time during the same pay period, “as a sign of
leadership.” 62 He explained that he was not going to ask others to adjust their time without
making adjustments himself. 63 Supervisor 2 told the OIG that he chose not to question
Supervisor 1 when asked to adjust his time and attendance entry; he believed Supervisor 1 was
trying to “do what was right and make amends and do whatever makes the optics right for the
department.” 64

Despite the decision by the federal government employees to use leave/personal time to cover
their participation in the event, the evidence indicated these employees made up the time spent
participating in the event by working additional hours during the same bi-weekly pay period.

57 See Supervisor 1 Interview, supra (Supervisor 1 indicated that he worked from home for approximately two hours following the

event. He explained that he made up the two additional hours the weekend following the team event—the same pay period as
the team event—when an employee had an issue with travel and Supervisor 1 spent at least two hours working to get the
employee’s travel approved.); Employee 1 Interview, supra (Employee 1 explained that he “probably” performed work, either at
his home or in the office, following the team event and, based on his typical work-pattern, it is likely that he made-up the hours
spent at the May 23, 2013, event. However, because of the passage of time between the event and the suggestion that
time/attendance records be adjusted, Employee 1 did not believe he could accurately calculate the additional hours worked
during the pay period ending June 1, 2013.); Employee 2 Interview, supra (Employee 2 indicated that, following the team event, he
returned to Building 6 (Goddard Space Flight Center) and worked for approximately 1.5-2 hours. Employee 2 explained that
he works, on average, at least 50 hours per week, so he believed he worked 80 hours during the bi-weekly period covering the
team activity.).
58 See Supervisor 2 Interview, supra (Supervisor 2 explained that he worked from home following the team event, and he believed

he worked eight hours on May 23, 2013.); Employee 3 Interview, supra (Employee 3 explained that he returned to Building 6
(Goddard Space Flight Center) following the team event. He explained that he worked a total of eight hours on May 23, 2013.)
; Employee 4 Interview, supra (Employee 4 indicated that, following the team event, he returned home and continued working for
approximately four hours. In total, he recalled working nine hours toward the GOES-R program on May 23, 2013.).
59 See Documents from Supervisor 1, February 12, 2014, supra.
60 See Employee 1 Interview, supra; Employee 2 Interview, supra; Employee 3 Interview, supra.
61 See Supervisor 1 Interview, supra.
62 Id.
63 Id.
64 See Supervisor 2 Interview, supra.




12                                                                                                              REPORT #14-0475
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


Further, these employees did not accrue compensatory time or receive overtime pay for
working more than 80 hours bi-weekly. 65 As a result, because the employees worked the time
initially claimed over the course of the pay period, the initial time and attendance entries
resulted in no loss to the federal government.

                2. Adjustments Made by Noblis Employees

The OIG review of time and attendance entries made by Noblis employees confirmed much of
the information reported in the Noblis Letter dated March 21, 2014. Specifically, OIG
confirmed that five Noblis employees participated in the GOES-R team activity in varying
degrees. 66 One of the five employees participated in the lunch portion of the event only—this
employee returned to the office after the lunch portion of the event and worked for the
remainder of the workday. 67 No adjustments were made to this employee’s time and
attendance record following the event because the employee accurately recorded the number
of hours worked toward the GOES-R program on the initial time and attendance entry. 68

The four Noblis employees who participated in both the lunch and movie portions completed
varying amounts of work toward the GOES-R program on May 23, 2013. 69 As reflected in the
table below, two Noblis employees worked toward the GOES-R program prior to and after the
team event, thereby completing eight hours of work toward the GOES-R program on May 23,
2013.
                                                 Table 1. Noblis, Inc.
                                      LUNCH          MOVIE        INITIAL BILLING           HOURS WORKED
               Employee 5             YES            NO           9 hours                   9 hours 70
               Employee 6             YES            YES          8 hours                   8 hours 71
               Employee 7             YES            YES          8 hours                   8 hours 72
               Employee 8             YES            YES          8 hours                   5 hours 73
               Employee 9             YES            YES          8 hours                   5 hours 74




65 See, e.g., Supervisor 1 Interview, supra; Supervisor 2 Interview, supra.
66 See generally OIG IRF: Interview of Employee 5 [hereinafter Employee 5 Interview]; Employee 6 Interview, supra; OIG IRF:
Interview of Employee 7 [hereinafter Employee 7 Interview]; Employee 8 Interview, supra; Employee 9 Interview, supra.
67 See Employee 5 Interview, supra.
68 Id.
69 See generally Employee 6 Interview; supra; Employee 7 Interview, supra; Employee 8 Interview, supra; Employee 9 Interview, supra.
70 See Employee 5 Interview, supra (Employee 5 attended the lunch portion of the team event only, and he returned to the office

after lunch and worked entire day (i.e., nine hours toward the GOES-R program)).
71 See Employee 6 Interview, supra (Upon leaving the team event, Employee 6 went to his personal residence and teleworked.

He worked three hours from home following the team event to make up for the time spent at the movie.).
72 See Employee 7 Interview, supra (Employee 7 believed that, following the team event, he returned to his personal residence and

performed work. In total, Employee 7 believed he worked 7-8 hours toward the GOES-R program on May 23, 2013.).
73 See Employee 8 Interview, supra (The normal workday for Employee 8 is 7:00 a.m. to 3:00 p.m. daily. His participation is

calculated as three hours based on his normal workday ending at 3:00 p.m. He worked toward the GOES-R project for five
total hours on May 23, 2013, and did not otherwise make up the hours spent at the team event.).
74 See Employee 9 Interview, supra (Employee 9 returned to his personal residence following the team event and worked an

additional 30-60 minutes. In total, Employee 9 believed he worked a total of five hours toward the GOES-R project on May 23,
2013.).




REPORT #14-0475                                                                                                                  13
     U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL


For the other two employees (i.e., Employee 8 and Employee 9), the OIG determined that
these employees did not work eight hours toward the GOES-R program on May 23, 2013, as
initially billed, and they did not work longer hours during the pay period to cover the time
spent at the event. 75

To determine the amount improperly billed to the GOES-R program, the OIG considered the
actual amount of time claimed towards the GOES-R program by Employee 8 and Employee 9
prior to and after the event on May 23rd. As a result, the OIG concluded that both employees
improperly billed three hours to the program for their participation in the team activity and did
not otherwise make up for the hours during the same pay period. All other Noblis employees
accurately recorded the number of hours worked toward the program on May 23rd.

         3. Adjustments Made by Columbus Technologies and Services, Inc., Employees

The OIG review revealed that five employees from Columbus Technologies and Services, Inc.,
(Columbus) participated in the GOES-R team event on May 23, 2013. 76 The five employees
initially billed varying amounts of time toward the GOES-R program to cover their participation
in the event. 77 A senior manager for Columbus told the OIG that, when Columbus
management learned that its employees had entered their participation in the team event as
hours worked toward the GOES-R program, he met with each employee to discuss time and
attendance policies and appropriate entries for the team event. 78 He stated that he explained
to the employees that all time and attendance entries should accurately reflect the actual
number of hours worked on the GOES-R program. 79 According to the senior manager, several
employees believed up to that point that time and attendance records had to reflect exactly 80
hours of work for each bi-weekly pay period, even if the employee worked on the GOES-R
program for more than 80 hours during that pay period. 80 This misunderstanding, according to
the senior manager, caused several employees to have daily entries that did not accurately
reflect the amount of work completed toward the GOES-R program. 81

The senior manager indicated that, following his discussion with each employee, several
employees who participated in the team event adjusted other workdays during that bi-weekly
pay period to accurately reflect the number of hours worked on the GOES-R program. 82
These adjustments included adding hours worked to other days during the pay period to
accurately account for the time spent on the GOES-R program. 83

The OIG found that two Columbus employees (i.e., Employee 10 and Employee 11) accurately
accounted for their participation in the team activity and, therefore, did not make subsequent


75 See generally OIG IRF: Interview of Employee 8 on August 12, 2014; OIG IRF: Interview of Employee 9 on August 12, 2014.
76 See Documents from Columbus, supra.
77 Id.
78 OIG IRF: Interview of Columbus Senior Manager [hereinafter Columbus Senior Manager Interview].
79 Id.
80 Id.
81 Id.
82 Id.
83 Id.




14                                                                                                        REPORT #14-0475
U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL


adjustments. 84 The OIG also found that Employee 12, Employee 13, and Employee 14,
following their meeting with the Columbus senior manager, appropriately reduced the amount
of time worked on May 23, 2013, to account for time spent at the team event—they also
adjusted other workdays during the same pay period by adding hours worked on the GOES-R
program that were not previously reported. 85 The added time on other workdays during the
same pay period covered the time spent at the team activity and, as a result, the OIG
determined the initial incorrect entries by Employees 12, 13, and 14 did not result in overbilling
by Columbus.

              4. Adjustments Made by ECG, Inc., Employees

Two employees from ECG, Inc., (ECG) participated in the GOES-R team activity on May 23rd. 86
The OIG determined that both employees (i.e., Employee 15 and Employee 16) returned to the
office following the event to make up for the time spent at the event. 87

Because the amount initially reported by the ECG employees on May 23, 2013, accurately
reflected the number of hours worked toward the GOES-R program on that day, there was no
overbilling by ECG for the employees’ participation in the team activity.

              5. Adjustments Made by Booz Allen Hamilton Employee

The OIG review revealed one employee from Booz Allen Hamilton attended the GOES-R team
activity on May 23rd. 88 The employee participated in both the lunch and movie portions of the
event, and he calculated the total amount of time away from the office to be four hours. 89 As
reflected in the table below, the employee entered eight hours of work towards the GOES-R
program, despite acknowledging that he only worked five hours towards the program on May

84 See OIG IRF: Interview of Employee 10 and Review of Affidavit [hereinafter Employee 10 Interview] (Employee 10 attended

the movie and returned to work for approximately one hour immediately following the movie. Employee 10 initially billed five
hours for May 23, 2013, and, as a result, made no adjustments.); OIG IRF: Interview of Employee 11 and Review of Affidavit
[hereinafter Employee 11 Interview] (Employee 11 attended the lunch portion of the team activity only. He returned to work
following the lunch portion and completed eight hours of work on May 23, 2013.).
85 See OIG IRF: Interview of Employee 12 and Review of Affidavit [hereinafter Employee 12 Interview] (Employee 12 initially

recorded eight hours of work daily for May 20 through May 23, 2013; however, in September 2013 when he was asked to
adjust his time/attendance record for the team event, Employee 12 also adjusted other days in the week to reflect longer
workdays while on travel (earlier in the week)); OIG IRF: Interview of Employee 13 and Review of Affidavit [hereinafter
Employee 13 Interview] (Employee 13 initially recorded eight hours of work for May 23, 2013; however, when he was asked to
adjust his time/attendance record for the team event, Employee 13 also adjusted one other day in the week to reflect longer
hours worked); OIG IRF: Interview of Employee 14 and Review of Affidavit [hereinafter Employee 14 Interview] (Employee 14
participated in a telephone conference remotely immediately upon leaving the movie; he believed the telephone conference
ended at approximately 5:30 p.m. When asked to adjust his time, he performed a self-audit, resulting in 0.5 hours added to
May 20, 2013 (Monday) and 0.5 hours deducted from May 23, 2013.).
86 See Documents from ECG, supra.
87 See OIG IRF: Interview of Employee 15 and Review of Affidavit [hereinafter Employee 15 Interview] (Employee 15 returned to

work after the team event and worked until approximately 6:30-7:00 p.m. to make up for the hours he was out of the office);
ECG Documents, supra (Employee 16 was no longer employed by ECG at the time of the current OIG investigation. As
indicated in an e-mail from Employee 16 to Supervisor 1 on August 22, 2013, Employee 16 did not participate in the lunch
portion of the team event, but he did attend the movie. Employee 16 explained that he “flexed the time by coming in earlier
and returning back to the office after the event” to make up his time.).
88 See Documents from Booz Allen Hamilton, supra.
89 See Employee 17 Interview, supra.




REPORT #14-0475                                                                                                            15
     U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL


23, 2013. The employee indicated that, at the time of his initial time and attendance entry, he
did not give the entry much thought because “so much was going on that week anyway.” 90
Additionally, he stated that he had not received guidance and did not ask anyone how time and
attendance should be entered for his participation in the event. 91

                                         Table 2. Booz Allen Hamilton
                                   LUNCH          MOVIE        INITIAL BILLING           HOURS WORKED
             Employee 17           YES            YES          8 hours                   5 hours 92


On September 18, 2013, Employee 17 submitted an adjustment to his time and attendance
entry to remove three hours of time originally claimed as work towards the GOES-R program
on May 23, 2013. 93 The employee replaced the three work hours with three hours of Personal
Time Off with an explanation that the “[c]lient held a team event on a portion of 5/23 but later
found out that he should have advised staff that it was a personal event as opposed to an official
work event. Hence this [timesheet correction].” 94 In October 2013, Booz Allen Hamilton
“credited back” the three hours incorrectly billed to the GOES-R program for the team
event. 95

              6. Adjustments Made by The Aerospace Corporation Employees

The OIG interviewed the two contract employees from Aerospace who participated in the
team event on May 23rd. 96 As reflected in the table below, one Aerospace employee
participated in only the lunch portion of the team event, while the other participated in both
the lunch and movie portions. 97 Both employees initially entered eight hours of work on May
23, 2013, and were subsequently asked by their Aerospace supervisor to adjust their time and
attendance entries for their participation in the team event. 98




90 Id.
91 Id.
92 Id. Upon leaving the team event, Employee 17 returned to Goddard Space Flight Center and worked toward the GOES-R

program for 1 to 1.5 hours. Employee 17 adjusted his time and attendance record to reflect five hours of work toward the
GOES-R program and three hours of personal time. Employee 17 determined this to be the correct adjustment because he
“figured the event was 4 hours but [he] worked another hour to 1.5 hours so 4-1=3.”
93 See Documents from Supervisor 1, February 12, 2014, supra.
94 Id.
95 See OIG IRF: Interview of Booz Allen Hamilton Financial Representative [hereinafter Booz Allen Hamilton Financial

Representative Interview].
96 See Documents from Aerospace, supra.
97See OIG IRF: Interview of Employee 18 and Review of Affidavit [hereinafter Employee 18 Interview]; Employee 19 Interview,

supra.
98 See Employee 18 Interview, supra; Employee 19 Interview, supra.




16                                                                                                           REPORT #14-0475
U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL


                                   Table 3. The Aerospace Corporation
                                     LUNCH         MOVIE         INITIAL BILLING           HOURS WORKED
              Employee 18            YES           NO            8 hours                   8 hours
              Employee 19            YES           YES           8 hours                   5 hours


     Employee 18 indicated that he participated in the lunch portion of the team event only. 99
     Upon leaving the lunch, he returned to work and completed a total of eight hours of work
     toward the GOES-R program on May 23, 2013. 100 He initially entered eight hours of work,
     but his Aerospace supervisor later asked him to consider taking one hour of vacation to avoid
     any appearance of impropriety. 101 Employee 18 agreed to use one hour of leave to cover his
     participation in the lunch portion of the team event, although he believed he worked eight
     hours toward the GOES-R program on May 23, 2013. 102 For purposes of calculating the
     amount of time incorrectly billed to the government, the OIG considered the initial time and
     attendance entry for Employee 18 (i.e., eight hours of work toward the GOES-R program) to
     be accurate and that he did not incorrectly bill the government for time spent at the team
     event.

     Employee 19 initially recorded 40 hours of work toward the GOES-R program for the pay
     period covering the May 23, 2013, team event. 103 He subsequently adjusted his entry to
     reflect five hours of work and three hours of vacation on May 23rd—as a result, his adjusted
     time and attendance record for the pay period reflected 37 hours of work toward the GOES-
     R program and three hours of vacation. 104 For purposes of calculating the amount of time
     incorrectly billed to the government for his participation in the team event on May 23, 2013,
     the OIG determined that Employee 19 worked 37 hours—as reflected on his adjusted time
     and attendance record—and he did not otherwise make up the time spent at the team event
     during the weekly pay period. The OIG concluded that Employee 19 improperly billed three
     hours to the program for his participation in the team activity.

       E. Total Amount Incorrectly Billed to the Government

      To determine the total amount improperly billed towards the GOES-R program on May 23,
      2013, the OIG considered the hourly labor rate for each employee and the total number of
      hours they incorrectly charged to the GOES-R program. In total, as reflected in the chart
      below, the listed employees who participated in the team event on May 23, 2013, incorrectly
      billed 12 hours ($1,460.12 in wages) to the GOES-R program. 105



99 See Employee 18 Interview, supra.
100 Id.
101 Id.
102 Id.
103 See Employee 19 Interview, supra.
104 See id.
105 The labor rates used to calculate the total amount of wages paid for these incorrectly-billed hours were provided by the

respective contract companies. These rates are on file with the OIG. The labor rates are not included in this investigative
report in order to preserve the apparent proprietary nature of this information.




REPORT #14-0475                                                                                                                17
      U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


                 Table 4. Total Amount Incorrectly Billed to the Government
                                                       HOURS INCORRECTLY BILLED
                                 Employee 8            3 hours
                                 Employee 9            3 hours
                                 Employee 17           3 hours
                                 Employee 19           3 hours
                                        TOTAL          12 hours ($1,460.12 wages)


The contract companies responsible for these employees—Noblis, Booz Allen Hamilton, and
Aerospace—subsequently “credited back” the hours and amounts initially billed to the
government for the participation in the team event. 106

       F. Steps Taken by GOES-R Management Following OIG Review

Following the OIG's initiation of investigation13-0948-I in July 2013, Supervisor 1 took steps to
ensure all participants in the team event reviewed their initial time and attendance entries and
made appropriate adjustments if necessary. 107 Supervisor 1 explained to the OIG that, after
learning of investigation 13-0948-I, he made sure to include guidance regarding proper
timekeeping when announcing team activities. 108 For example, when announcing a team activity
for “Administrative Appreciation Day” in April 2014, the presentation included the following
guidance: “Reminder – participation in this event cannot be charged as ‘hours worked.” 109

Similarly, in April 2014, a GOES-R senior manager e-mailed the GOES-R staff:

          This event serves as an important reminder to all GOES-R employees and
          contractors that we must continue to hold ourselves to the highest degree of
          professional and ethical standards. GOES-R is one of the most visible, and
          scrutinized, programs in the history of the Department of Commerce.
          There are many eyes watching us. Yet, events like this cast a negative light
          on the program despite all the great work that we do day-in and day-out.

          The U.S. taxpayers have a right to expect that those of us in public service
          are being wise stewards of their tax dollars. While we want everyone to be
          able to participate in team activities from time-to- time, because these often
          take place during normal office hours it is important to remember that
          working hour requirements still apply and all Government employees and
          contractors are to adhere to them. There can be no comprimise [sic]. 110




106 See Noblis Letter, supra; Booz Allen Hamilton Financial Representative Interview, supra; Documents from Aerospace, supra.
107 See Supervisor 1 Interview, supra.
108 See id.
109 Id. Emphasis in original.
110 See Employee 1 Interview, supra, Attach. 2 (April 11, 2014, e-mail from GOES-R senior manager to the GOES-R staff).




18                                                                                                                  REPORT #14-0475
U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL


II.    Analysis

Although the evidence established certain failures in connection with the GOES-R team-building
event on May 23, 2013, which are discussed below, we note that the evidence also supported
several positive findings. For instance, GOES-R Ground Segment supervisors perceived low
morale amongst the staff and believed that they were working long hours. As a result,
Supervisor 1 planned a team-building event for the staff, hoping to bolster team unity and re-
motivate them toward the GOES-R mission.

We recognize that such events can create cohesion within a team that could positively
contribute to the mission. As the Office of Personnel Management stated: “[t]eams are
expected to produce results, but performance is hindered when team members do not work
well together. A collaborative team environment is essential for the team’s success.” 111
Accordingly, we credit Supervisor 1’s efforts to enhance unity and build morale within the
Ground Segment staff.

We also note that the issues described below would likely not have come to light without the
anonymous whistleblower who first raised the allegations to the OIG. Whistleblowers are
essential to effective oversight of government programs, and we credit the complainant for
stepping forward and raising the allegations at issue in this investigation.

As noted above, the OIG’s review of the evidence established certain problems in connection
with the May 23, 2013, event. Even if watching a Star Trek movie as a unit results in greater
unity or cohesion, such an event should not be considered billable to the government. Unlike
training events, which are designed to develop tangible professional skills, this event was social
in nature and offered no professional development whatsoever. As a result, we concluded that
it was a non-billable event.

With that in mind, we found that Supervisor 1, after promoting the event to his staff, failed to
provide clear guidance regarding appropriate timekeeping. In making this finding, we credited
Supervisor 1’s statement that he believed the staff understood timekeeping rules and would
recognize the event as not billable to the GOES-R program, and therefore we concluded that
this failure was unintentional.

With regard to the GOES-R Ground Segment personnel, we found that employees’
understanding of timekeeping rules varied considerably. A significant number of participants in
the team activity understood the activity was not billable and, therefore, properly billed the
number of hours worked on May 23, 2013. Other employees incorrectly billed their
participation on May 23, 2013, but worked additional hours during the same pay period to
make up for the hours spent at the event.




111Office of Personnel Management, Performance Management: Teams, available at http://www.opm.gov/policy-data-
oversight/performance-management/teams/building-a-collaborative-team-environment/ (originally published August 1997).




REPORT #14-0475                                                                                                         19
     U.S. DEPARTMENT OF COMMERCE                               OFFICE OF INSPECTOR GENERAL


We also found, however, that four participants incorrectly billed their participation and did not
make up for the hours by working additional hours on May 23, 2013, or on other days during
the same pay period. As listed in the chart below, these four employees improperly billed 12
hours to the GOES-R program, resulting in $1,460.12 improperly charged to the government.
We concluded that the contract employees who incorrectly billed the GOES-R program for
their participation in the team activity did not believe their initial charges to be false or
improper at the time they entered their timekeeping. Accordingly, we determined the initial
timekeeping did not constitute a violation of the civil False Claims Act, 31 U.S.C. § 3729.

             Table 5. Total Amount Incorrectly Billed to the Government
                                        HOURS INCORRECTLY BILLED
                        Employee 8      3 hours
                        Employee 9      3 hours
                        Employee 17     3 hours
                        Employee 19     3 hours
                              TOTAL:    12 hours ($1,460.12 in wages)


We recognize that the contract companies responsible for the four employees listed above—
Noblis, Booz Allen Hamilton, and Aerospace—subsequently “credited back” the amounts
improperly billed to the government. However, these credits were made only after the OIG
initiated investigation 13-0948-I, and it appears unlikely that GOES-R management or the
contract companies would have recognized the improper billing absent the OIG review.

We also recognize that a significant number of employees who initially billed their time
appropriately or otherwise made up their time during the same pay period were later asked by
GOES-R management and/or contract management to adjust their entries to reflect leave or
vacation for the event on May 23, 2013. In most cases, this was apparently done to remove
doubt and avoid any appearance of impropriety. Asking employees to use leave or vacation
time when they in fact properly accounted for the amount of time worked toward the GOES-R
program, however, resulted in inaccurate billing for work performed, to the benefit of the
federal government.

The apparent confusion among GOES-R Ground Segment staff regarding timekeeping for the
team activity resulted in improper billing, yet the GOES-R management has not provided
training to the Ground Segment staff to ensure similar issues do not reoccur. We recognize
that contract companies have addressed proper timekeeping with the individual participants in
the team activity, but we find that GOES-R management should provide training regarding
proper timekeeping to the entire GOES-R staff to avoid reoccurrence.




20                                                                                  REPORT #14-0475
U.S. DEPARTMENT OF COMMERCE                               OFFICE OF INSPECTOR GENERAL



Chapter 4: Conclusion and Recommendations
 I.    Conclusion

The results of this investigation are not intended to suggest that GOES-R management
discontinue attempts to build unity or morale through appropriate events. However, events
like the matinee viewing of the latest Star Trek movie held in May 2013 should not be
conducted at the expense of taxpayers. Management must always consider proper timekeeping
when promoting such events and provide clear guidance to the staff and relevant contractors
prior to these events. Without clear guidance, similar confusion among staff is likely to occur
and may again result in improper billing to the government.

II.    Recommendations

      A. Recommendation 1

NOAA should provide clear and appropriate guidance on proper timekeeping, in writing, to
both agency and contract staff in advance of government-sanctioned team events in the future
in order to prevent any possible confusion regarding duty status.

      B. Recommendation 2

NOAA should provide training to agency and contract staff to ensure all GOES-R employees
are aware of the applicable regulations concerning accurate timekeeping for government-
sanctioned team events and obligations to disclose fraud and false claims.




REPORT #14-0475                                                                                21
